                       The Inspector General                        Office of Inspector General
                                                                    Washington, D.C. 20590



Office of the Secretary
of Transportation

U.S. Department of
Transportation


FOR IMMEDIATE RELEASE                                       Friday, December 31, 2004

Contact:                         David Barnes 202-366-6312/david.barnes@oig.dot.gov

       OIG Announces Hotline and Website for Reporting Information
                     on Holiday Travel Disruptions

The U.S. Department of Transportation's Office of Inspector General announced today
the creation of a toll-free hotline and website for travelers and others to share their
experiences or insights on the flight disruptions over the Christmas holiday weekend.

“At the request of Secretary Mineta, we are examining travel disruptions on US Airways
and Comair between December 22-28,” said Inspector General Kenneth M. Mead. “To
assist in our investigation, if you were impacted by holiday travel disruptions or have
some related information to report, please contact us at 1-866-670-3341 or send us an
e-mail through the OIG website at http://www.oig.dot.gov.”

Persons who believe that airlines did not comply with DOT’s consumer protection
requirements are advised to contact the Department’s Aviation Consumer Protection
Division by calling 202-366-2220. Their website is http://www.dot.gov/airconsumer.

                                         ###
